(,4-
~ S'''VlClI.(.I''-f


                      DEPARTMENT OF REALm & RUMAN SERVICES                                             Office of Inspector General

                                                                                                       Office of Audit Services
                                                                                                       1100 Commerce. Room 632
                                                                                                       Dallas, TX 75242



                                                                                           March 13,2009
                 Report Number: A-06-08-00040

                 Ms. Melissa Halstead Rhoades
                 Area Director & Medicare Chief Financial Officer
                 TrailBlazer Health Enterprises, LLC
                 8330 LBJ Freeway, 11 th Floor
                 Dallas, Texas 75243

                 Dear Ms. Rhoades:

                 Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                 General (OIG), final report entitled "Review of High-Dollar Payments for Medicare Outpatient
                 Claims Processed by TrailBlazer Health Enterprises for the Period January 1 Through
                 December 31, 2004." We will forward a copy of this report to the HHS action official noted on
                 the following page for review and any action deemed necessary.

                 The HHS action official will make final determination as to actions taken on all matters reported.
                 We request that you respond to this official within 30 days from the date ofthis letter. Your
                 response should present any comments or additional information that you believe may have a
                 bearing on the final determination.

                 Pursuant to the Freedom ofInformation Act, 5 U.S.C. §552, OIG reports generally are made
                 available to the public to the extent that information in the report is not subject to exemptions in
                 the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                If you have any questions or comments about this report, please do not hesitate to call me, or
                contact Trish Wheeler, Audit Manager, at (214) 767-6325 or through e-mail at
                Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-08-00040 in all
                correspondence.

                                                               Sincerely,



                                                               Gordon L. Sato
                                                               Regional Inspector General
                                                                 for Audit Services


                Enclosure
Page 2 – Ms. Melissa Halstead Rhoades


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF HIGH-DOLLAR 

  PAYMENTS FOR MEDICARE 

    OUTPATIENT CLAIMS 

 PROCESSED BY TRAILBLAZER 

HEALTH ENTERPRISES FOR THE 

PERIOD JANUARY 1 THROUGH 

    DECEMBER 31, 2004 





                    Daniel R. Levinson

                     Inspector General 


                       March 2009

                      A-06-08-00040

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. The intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File to process claims. The Common Working File can detect
certain improper payments during prepayment validation.

Medicare guidance requires providers to bill accurately and to report units of service as the
number of times that the service or procedure was performed.

TrailBlazer Health Enterprises (TrailBlazer) is a Medicare fiscal intermediary serving more than
3,000 Medicare providers in Texas, New Mexico, Louisiana, Alaska, and Colorado. For
calendar year (CY) 2004, TrailBlazer processed approximately 8.3 million outpatient claims, 17
of which resulted in payments of $50,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether the high-dollar Medicare payments that TrailBlazer
made to providers for outpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 17 high-dollar payments that TrailBlazer made to providers, five were appropriate.
TrailBlazer overpaid providers for 12 claims, resulting in overpayments totaling $1,055,927.
Contrary to Federal guidance, the providers inappropriately overstated the units of service in the
12 high-dollar claims for one or more procedure codes. TrailBlazer made the overpayments
because neither the Fiscal Intermediary Standard System nor the Common Working File had
sufficient edits in place in CY 2004 to detect billing errors related to units of service.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   inform us of the status of the recovery of the $1,055,927 in overpayments and
   •   use the results of this audit in its provider education activities.




                                                 i
TRAILBLAZER HEALTH ENTERPRISES, LLC COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its comments on our draft report, TrailBlazer agreed with the findings and recommendations.
TrailBlazer commented that as a result of the audit it recovered $1,055,927 in overpayments.
However, TrailBlazer stated that it would not be cost beneficial to review all of the claims under
$50,000 that billed the procedure codes identified in this report. TrailBlazer’s comments are
included as the Appendix.

We agree with TrailBlazer’s contention that it would not be cost beneficial to review the claims
under $50,000 and removed this recommendation from the report.




                                                ii
                                                   TABLE OF CONTENTS 


                                                                                                                                     Page           


INTRODUCTION....................................................................................................................1 


     BACKGROUND .................................................................................................................1 

       Medicare Fiscal Intermediaries......................................................................................1 

       Claims for Outpatient Services ......................................................................................1 

       TrailBlazer Health Enterprises.......................................................................................1                   


     OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................1 

       Objective .......................................................................................................................1 

       Scope..............................................................................................................................2 

       Methodology ..................................................................................................................2 


FINDINGS AND RECOMMENDATIONS ..........................................................................2 


     FEDERAL REQUIREMENTS............................................................................................3 


     INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...........................................................3 


     CAUSES OF OVERPAYMENTS.......................................................................................4 


     FISCAL INTERMEDIARY PREPAYMENT EDIT...........................................................4 


     RECOMMENDATIONS.....................................................................................................4 


     TRAILBLAZER HEALTH ENTERPRISES, LLC COMMENTS AND 

     OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................4 


OTHER MATTERS ................................................................................................................5 


APPENDIX

   TRAILBLAZER HEALTH ENTERPRISES, LLC COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare Part
B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that intermediaries must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments.

To process providers’ outpatient claims, the intermediaries use the Fiscal Intermediary Standard
System and CMS’s Common Working File. The Common Working File can detect certain
improper payments when processing claims for prepayment validation.

In calendar year (CY) 2004, fiscal intermediaries processed and paid more than 136 million
outpatient claims, 588 of which resulted in payments of $50,000 or more (high-dollar payments).
We consider such claims to be at high risk for overpayment.

Claims for Outpatient Services

Providers generate the claims for outpatient services provided to Medicare beneficiaries.
Medicare guidance requires providers to bill accurately and to report units of service as the
number of times that the service or procedure was performed.

TrailBlazer Health Enterprises

TrailBlazer Health Enterprises (TrailBlazer) is a Medicare fiscal intermediary serving more than
3,000 Medicare providers in Texas, New Mexico, Louisiana, Alaska, and Colorado. For CY
2004, TrailBlazer processed approximately 8.3 million outpatient claims, 17 of which were high-
dollar payments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the high-dollar Medicare payments that TrailBlazer
made to providers for outpatient services were appropriate.




                                                 1

Scope

We reviewed the 17 high-dollar payments for outpatient claims that TrailBlazer processed during
CY 2004. We limited our review of TrailBlazer’s internal controls to those applicable to the 17
payments because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish a reasonable assurance
of the authenticity and accuracy of the data in the 17 claims obtained from the National Claims
History file, but we did not assess the completeness of the file.

We conducted our audit work from January 2008 through January 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws and regulations;

   •	 used CMS’s National Claims History file to identify Medicare outpatient claims with
      high-dollar payments;

   •	 reviewed available Common Working File claim histories for claims with high-dollar
      payments to determine whether the claims had been canceled and superseded by revised
      claims or whether the payments remained outstanding at the time of our audit;

   •	 contacted the providers that received the high-dollar payments to determine whether the
      information on the claims was correct and, if not, why the claims were incorrect and
      whether the providers agreed that refunds were appropriate; and

   •	 coordinated our review with TrailBlazer.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the 17 high-dollar payments that TrailBlazer made to providers, five were appropriate.
TrailBlazer overpaid providers for 12 claims, resulting in overpayments totaling $1,055,927.
Contrary to Federal guidance, the providers inappropriately overstated the units of service in the
12 high-dollar claims for one or more procedure codes. TrailBlazer made the overpayments
because neither the Fiscal Intermediary Standard System nor the Common Working File had
sufficient edits in place in CY 2004 to detect billing errors related to units of service.




                                                 2

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using coding from the Healthcare Common
Procedure Coding System. CMS’s “Medicare Claims Processing Manual,” Publication No. 100-
04, chapter 4, section 20.4, states that the number of service units “is the number of times the
service or procedure being reported was performed.” In addition, chapter 1, section 80.3.2.2, of
the manual states: “To be processed correctly and promptly, a bill must be completed
accurately.”

Section 3700 of the “Medicare Intermediary Manual” requires the fiscal intermediary to maintain
adequate internal controls over Medicare automatic data processing systems to preclude
increased program costs and erroneous and/or delayed payments.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

TrailBlazer made 12 overpayments totaling $1,055,927 because six providers billed for
excessive units of service.

   •	 For two claims, one provider billed procedure code C9207 for 35 units per claim rather
      than 1 unit per claim, which was the number of units provided. The provider stated that
      the error in units occurred because the automated charging system applied an incorrect
      conversion factor, which converts administered units to billable units. As a result of the
      error, TrailBlazer paid the provider $216,127 when it should have paid $8,060, an
      overpayment of $208,067.

   •	 For one claim, the provider billed procedure code C9205 for 800 units rather than 72
      units, which was the number of units provided. The provider stated that the error
      occurred because the billing system’s pricing tables contained an incorrect conversion
      factor for the procedure code. As a result of the error, TrailBlazer paid the provider
      $67,835 when it should have paid $6,939, an overpayment of $60,896.

   •	 For one claim, the provider billed procedure code 64573 for nine units rather than one
      unit, which was the number of units provided. The provider stated that the number of
      billing units for this drug was incorrectly entered into the billing system. As a result of
      the error, TrailBlazer paid the provider $89,025 when it should have paid $9,892, an
      overpayment of $79,133.

   •	 For one claim, the provider billed procedure code C9205 for 500 units rather than 50
      units, procedure code J1626 for 500 units rather than 10 units, and procedure code J2780
      for 4 units rather than 2 units. The provider attributed the incorrect number of units
      claimed to a clerical error. As a result of the error, TrailBlazer paid the provider $50,134
      when it should have paid $3,780, an overpayment of $46,355.

   •	 For five claims, one provider billed procedure code J0850 for 400 units rather than 4
      units for two of the claims and 300 units rather than 3 units for three of the claims. The


                                                3

         provider attributed the incorrect number of units to a conversion factor error. As a result
         of the error, TrailBlazer paid the provider $557,443 when it should have paid $9,970, an
         overpayment of $547,473.

    •	 For two claims, one provider billed procedure code J1626 for 1,000 units rather than 10
       units, which was the number of units provided. The provider stated that the number of
       billing units for this drug was incorrectly entered into the billing system. As a result,
       TrailBlazer paid the provider $125,327 when it should have paid $11,324, an
       overpayment of $114,003.

CAUSES OF OVERPAYMENTS

The providers agreed that overpayments had occurred and that refunds were due or had already
been made. The providers attributed the errors to their software programs and to human and
system errors in the application of conversion factors.

In addition, during CY 2004, TrailBlazer did not have prepayment or postpayment controls to
identify overpayments at the claim level, and the Common Working File prepayment editing
process lacked edits to detect and prevent excessive payments. In effect, CMS relied on
providers to notify the intermediaries of excessive payments and on beneficiaries to review their
“Explanation of Medicare Benefits” and disclose any overpayments.1

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after the end of our audit period, CMS required intermediaries to implement
a Fiscal Intermediary Standard System edit to suspend potentially excessive Medicare payments
for prepayment review. The edit suspends high-dollar outpatient claims and requires
intermediaries to determine the legitimacy of the claims.

RECOMMENDATIONS

We recommend that TrailBlazer:

    •	 inform us of the status of the recovery of the $1,055,927 in overpayments and
    •	 use the results of this audit in its provider education activities.

TRAILBLAZER HEALTH ENTERPRISES, LLC COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its comments on our draft report, TrailBlazer agreed with the findings and recommendations.
TrailBlazer commented that as a result of the audit it recovered $1,055,927 in overpayments.
However, TrailBlazer stated that it would not be cost beneficial to review all of the claims under


1
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the provider
files a claim for Part B service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         4

$50,000 that billed the procedure codes identified in this report. TrailBlazer’s comments are
included as the Appendix.

We agree with TrailBlazer’s contention that it would not be cost beneficial to review the claims
under $50,000 and removed this recommendation from the report.


                                      OTHER MATTERS

One provider that made high-dollar claims for 2004 responded that an error had occurred due to
a mistake in the provider’s pharmacy charge system tables. The provider stated that in 2004, one
drug was provided with two HCPCS codes, each with a different unit definition. The HCPCS
defined one procedure code as 0.5 mg per unit and the other procedure code as 5 mg per unit.
The provider stated that the pharmacy had inadvertently changed its pricing tables to define both
HCPCS codes as 0.5 mg. As a result, the provider overbilled all claims for procedure code
C9205 for part of 2004 and all of 2005. The provider submitted the corrected claims to
TrailBlazer along with a refund for the estimated overpayments resulting from this error. The
provider estimated that $96,029 was for CY 2004 TrailBlazer claims that were incorrectly billed
but not identified during our review because they were not high-dollar claims.

Another provider that made high-dollar claims for 2004 responded that it had incorrectly billed
an additional claim not identified in our review. The provider billed procedure code J1626 for
1,000 units rather than 10 units, which was the number of units provided. The provider stated
that the billing units for this drug were incorrectly entered into the billing system. The provider
was overpaid $16,686 for this claim, which we did not identify during our review because it was
not a high-dollar claim.




                                                 5

APPENDIX 

                                                                                                                Appendix
                                                                                                               Page 1 of 2 





                 CA#S                                                                                    MEDICARE

CENrERS f(N MEDICARE 8 MEOKAIO SE/Mas


    ~'larch 6.   2009

    Gordon L. Sato
    Rcgionallnspcctor General for Audit Services
    Office of ln~pcclOr General
    1100 Commerce. Room 632
    Dallas. T<:xas 75242

    Rcpon Number:       A~06-08-00040


    Dear Mr. 5a1O:

    We received the January 29. 2009. draft rcpon cnti\lc-d "Review of Iligh-Dollar Payments lOT
    Medicare Outpatient Claims Processed by TrailBlazer Hcahh Emerprises for the Period Jlliluary
    I lhrough December 31. 2004:" In the draft report. the OIG recommended Ihm TrailBlazer:
           [nlonn the 010 or the status of the recovery of the S 1.055.927 in overp<I}'Ulcrns.
           RC"iC\\ claims under $50.000 that bill the procedure codes identified in the rcpon and
           correct any claims found in error. lind
           Usc the results of this uudil in its provider educmion activities.

    Please consider the following responses to these recommendations for inclusion in the linal
    repon:

        Recovery of Overpa)'ments: As a n:sult of this audit. TrailOlazer recovercd $1.055.927.15
        in o\'crp,lyments,

        RC\'iew of claims under S50,000: TrailBlazer \\ ishes to corrc'ct all findings idelllitied in the
        audit. TrailHlazer understands the DIG is rccommcnding the TCview of all 2004 claims
        totaling $50.000 or less containing these particular procedures. Please contiml our
        understanding of the rccOI11IJl<:ndation.

        Typic'llly. C011lractors arc limited to lour years from the date oflhe initial determinati'1I1 or
        redctennination to initiate a reopening or re\'ise claims. A majority of claims \\ ith 2004 dates
        ofscrv;ce are purged from FISS. While a shell of the claim remains. including Hie number
        and dates ofscrvice, detailed information is not readily anlilable. In order to accomplish this
        recommendation. TmilOlazer willtuke thc following actions:
            I} Submit a reqllestto lhe [DC to retrieve all cillims from 20CW,
           2) Run II query against the retrieved claims to identify claims containing these
                procedurcs.
           J) Detemline if the claims idemilicd in step 2 ...xeeed the 4-year r...opening period. If
                they do. no additional action will be taken.
           4) Perform:1I1 initial analysisoflhe claim which "ill result in either a request to the
                pr{)vider 10 verify the units ofscrvicc provided for thosl' HCI'CS in 2004 or ask the


                               TrailBlazer Health Enterprises, LLC
                                 El<tICu',... Center III. 8330 lBJ FrMwOy' Doom.
                                        A Medicare Admlnistrtltive ContNlctor
                                                                                   T~   75._3·'.13
                                                                                                     ISO'
                                                                                                     ".".".1
                                                                                                      Appendix
                                                                                                     Page 2 of 2 




Gordon L Sato
March 6. 2009
Page 2 01'2




             provider to send medical records for a nurse revicw. This step will only be pcrlormeJ
             on thosc claims whi~h do nOI c.\ceed the 4-year rcopcning period.

      TrailBlazer has concerns Ihalthe COSI and enort inl'oh'ed might outweigh Ihe polential
      bt.·nefits. Therefore, TrailBlazer will wait for confirmation of our understanding of the
      r~'Commendation befort: beginning any oflhc aClivilics outlined abon~.


      PrOl'ider Education AClil'itics: TrailBlazer Providcr Olllrcaeh and Eduealion Stair will usc
      various methods to disseminate educational information to <lddress the issues identi!ied in
      this audit. induding:
               Listsen messages
               Wch nOlin's
               Facc to face presentations

      Inllddition. TrailBlazer maintains numemus online tools relating to outpatient sCf\'ices and
      proper claim submission on the TrailBlazer Web site. including:
              Outpatient Services manual (http://www.trailblazerh(.alth.com/Publ icationsl
              Tmini ng%20Manual/llospitaIOutpat ient :v1anua I,pdl)
              Med iearc Basics manual (http://www.trailblazerheahh.eom/l'ublieationsrrraining%
              20Manuai/Medicare HasiesManual.pd I)
              DDE (Direct Data Entry) Claims Entry manual (ht1p:llw\V\\f.lrailblaznhealth.coml
              Publ iealionsrrraini ng%20ManuallG PNetClaimsEl1lr~ .pdt)

II' you have any que~tions regarding our response. please eont,let me.

Sinn-rely.


~~JoIv<£1I<VlO~
Melissa Halstead Rhoades
Area Director & Medicare eFO


Cc:      Virginia Adams. Project Officer for A/B ,"lAC SOUlhem Program Dhision
         Gil R. Glover. President & Chief Operating Otlicer
         Scott J. l\:lanning. Vice President. Financial Mgt. Operations & J4 MAC Project Manager
         Kevin Bidwell. Vice President & Compliance Oflieer
